REVIEW OF HEALTH AND SAFETY CONDITIONS
  AT THE BANNISTER FEDERAL COMPLEX
         KANSAS CITY, MISSOURI
   REPORT NUMBER A100116/P/6/R11001
           NOVEMBER 8, 2010
Date       :November    8, 2010
Reply to
Attn of    :Regional   Inspector General for Auditing, Heartland Region Field Audit Office (JA-6)

Subject :Review   of Health and Safety Conditions at the Bannister Federal Complex
           Kansas City, Missouri
           Report Number A100116/P/6/R11001

To         :JasonO. Klumb
           Regional Administrator, Heartland Region (6A)

           Mary A. Ruwwe
           Regional Commissioner, Heartland Region Public Buildings Service (6P)


           This report presents the results of our review of the health and safety conditions at the
           Bannister Federal Complex (Complex) in Kansas City, Missouri. The review was
           performed in response to a February 3, 2010, request from United States Senator
           Christopher Bond.

           The report found that the Heartland Region Public Buildings Service (PBS) is currently
           taking substantial steps to protect the occupants of the Complex and testing has
           revealed no significant health hazards in GSA-controlled space.        However, we
           determined that prior to 2010, PBS did not have a strong environmental management
           program for the Complex.

           We have included your written comments in Appendix C to this report. If you have any
           questions regarding this report, please contact me at (816) 926-8615.




                                                           
            
                   REVIEW OF HEALTH AND SAFETY CONDITIONS
                     AT THE BANNISTER FEDERAL COMPLEX
                            KANSAS CITY, MISSOURI
                      REPORT NUMBER A100116/P/6/R11001


                                TABLE OF CONTENTS
                                                                           Page

INTRODUCTION                                                                1

RESULTS OF REVIEW                                                           2

    No Indication of Current Health Risk at the Complex but Previous PBS
    Efforts in Environmental Management Were Lacking                        3

    Incorrect and Misleading Information, Inadequate File Documentation,
    and Possible Non-Compliance with CERCLA Reporting Requirements
    Damage GSA’s Credibility                                                7

    Conclusion                                                              9

    Internal Controls                                                       10

    Management Comments                                                     10

    OIG’s Response                                                          10

APPENDIXES

    Objective, Scope, and Methodology                                      A-1

    Map of the Bannister Site, Current Usage, and Historical Background    B-1

    Management Response                                                    C-1

    Report Distribution                                                    D-1




                                            
 
                  REVIEW OF HEALTH AND SAFETY CONDITIONS
                    AT THE BANNISTER FEDERAL COMPLEX
                           KANSAS CITY, MISSOURI
                     REPORT NUMBER A100116/P/6/R11001


                                   INTRODUCTION

On February 3, 2010, Senator Christopher Bond sent a letter to the Inspector General of
the General Services Administration (GSA) requesting a review of the environmental
conditions at the Bannister Federal Complex (Complex). Specifically, Senator Bond’s
letter advised that current and former employees at the Complex may have developed
serious illnesses and died as a result of exposure to toxic substances. We were asked
to determine whether GSA’s Public Buildings Service (PBS) took appropriate steps to
protect the health and safety of the occupants in PBS space at the Complex.
Subsequently, Senator Claire McCaskill and Congressman Emmanuel Cleaver also
expressed their support of a review of the conditions at the Complex.

Since November 2009, a Kansas City news station and a Kansas City newspaper have
run numerous reports regarding the health of current and former occupants of the
Complex. These reports stated that the Complex has a history of known health hazards
related to exposure to trichloroethylene (TCE), lead, petroleum hydrocarbons, beryllium,
uranium, volatile organic compounds, and polychlorinated biphenyls (PCBs). The news
reports further stated that such exposure may have resulted in illnesses and even the
deaths of some of the occupants of the Complex. The basis of the news reports was a
letter drafted by some occupants of the Complex that included a list of 95 names and
indicated that these individuals had contracted cancer or other illnesses related to
environmental conditions at the Complex.

Appendix A of this report describes the objective, scope, and methodology of our review
in more detail. Appendix B provides a map, current usage information, and historical
background of the Complex.




                                           1
                                       REVIEW OF HEALTH AND SAFETY CONDITIONS
                                         AT THE BANNISTER FEDERAL COMPLEX
                                                KANSAS CITY, MISSOURI
                                          REPORT NUMBER A100116/P/6/R11001


                                                               RESULTS OF REVIEW

In response to employee concerns and various news reports, PBS has taken substantial
steps to protect the health of the occupants of the Complex. These recent steps are
encouraging, but prior to 2010, PBS did not maintain a strong environmental
management curriculum that would have provided positive assurance that the space in
the Complex was a safe and healthy work environment.

Current PBS efforts include enlisting the assistance of the U.S. Environmental
Protection Agency (EPA) 1 and the Center for Disease Control’s National Institute for
Occupational Safety and Health (NIOSH). Since January 2010, EPA has been
coordinating testing and providing oversight for environmental issues at the Complex.
In March 2010, NIOSH began evaluating potential health issues at the Complex. These
evaluations included health screening services for current and former Complex
occupants. In addition, in February 2010, PBS made modifications to the Complex
including the installation of vapor intrusion systems at the child care facility and an
adjacent building (Building 50). Testing has revealed no significant health hazards
present in the child care facility or in GSA-controlled space.

However, PBS did not always take appropriate steps to protect the health and safety of
the occupants at the Complex when presented with evidence of potential hazards. In
addition, PBS environmental personnel provided incorrect and misleading information in
response to questions about the environmental conditions at the Complex. PBS
personnel also did not have a clear understanding of environmental responsibilities
pertaining to the GSA-controlled portion of the Complex and did not adequately
document or maintain files related to health and safety conditions at the Complex.
Finally, PBS may not have complied with the annual reporting requirements of the
Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA).

As a result, GSA cannot provide assurance that the Complex has historically been a
safe and healthy workplace. Further, PBS’s actions, along with the dissemination of
incorrect information, have damaged GSA’s credibility with both building occupants and
the general public.




                                                            
1
 While EPA has been involved in the testing performed at the Complex since January 2010, the formal
work plan between GSA and EPA was executed on September 13, 2010. This work plan provides the
details of the agreement between GSA and EPA.

                                                                       2 
 
No Indication of Current Health Risk at the Complex but Previous PBS Efforts in
Environmental Management Were Lacking

Testing conducted in 2010, in response to the Kansas City media allegations, has not
identified any significant health hazards at the Complex. However, PBS’s current
environmental oversight efforts are not representative of its performance in this area
during the previous 10-year period. We determined there was a lack of effective
environmental oversight at the Complex during that time. As a result, GSA cannot
provide assurance that historically, the Complex has been a safe and healthy
workplace.

Current Testing Shows No Significant Health Hazards and GSA is Taking Proactive
Measures

During 2010, PBS undertook significant efforts to ensure the Complex was free of
environmental occupational hazards. These efforts were pursuant to the requirements
of Executive Order 12196, 29 CFR 2 Part 1960.8(a), and GSA Order ADM P5940.1A,
which state that GSA must provide all individuals who work in GSA-owned or operated
facilities, a safe environment that is free from health hazards. Specifically, the
Executive Order states, in part, that the head of each agency shall, “Furnish to
employees places and conditions of employment that are free from recognized hazards
that are causing or are likely to cause death or serious physical harm.”

PBS efforts have included tests for toxic substances at the Complex. These air, soil,
and water analyses were generally conducted under the direction of the EPA and have
indicated that the occupants of the Complex are not currently at risk from exposure to
these substances. GSA has also entered into a work agreement with the EPA to
provide assistance and oversight to PBS at the Complex involving environmental
matters.

In addition to testing for toxic substances, PBS installed vapor intrusion systems and
took other steps to address environmental issues at the Complex. These steps
included: (1) testing occupants of the Complex for various illnesses that could be related
to toxic substances that have been present at the site, (2) creating an environmental
council to assist in the management of environmental issues at the Complex, and (3)
taking actions to inform and assist the occupants concerning environmental matters at
the Complex.

PBS and the Regional Administrator for GSA’s Heartland Region also requested
assistance from NIOSH to evaluate the Complex and its occupants for possible health
conditions related to exposure to toxic substances. On September 29, 2010, NIOSH
provided an interim report regarding GSA’s request for a health hazard evaluation. The
report states that, to date, NIOSH has found no issues related to beryllium, uranium, or


                                                            
2
    Code of Federal Regulations

                                                               3 
 
volatile organic compounds. 3 NIOSH stated that a final report will be issued after all
tests are completed but did not provide a completion date.

Prior PBS Environmental Management Was Lacking

Prior to 2010, PBS addressed specific issues when raised by tenants but did not have a
strong environmental management program for the Complex. Given the known
contamination at the Complex and given the requirement to protect the health and
safety of building occupants, we believe PBS should have been more vigilant in
overseeing environmental issues at the Complex. Further, we are troubled by the lack
of knowledge on the part of PBS officials about safety and environmental conditions at
the Complex. They were even unaware of their responsibilities for these conditions.

        Ad Hoc Testing. Despite initial PBS reports that it performed comprehensive
annual and 5-year environmental testing at the Complex, we determined that PBS
performed no routine environmental testing. For the period 1999 through 2009, we
identified 124 separate environmental tests/analyses/inspections that were performed at
the Complex. These evaluations were performed in response to specific incidents
and/or requests. They addressed different environmental and health issues including
air quality, water analysis, lead analysis, asbestos testing, beryllium testing, PCB
sampling, soil analysis, silica dust remediation, and mold sampling. When problems
were identified, the documentation indicates that PBS took actions to address the
issues.

For a historical perspective on employee work related illnesses, we also reviewed
workers’ compensation claim information filed by federal employees at the Complex
from 1988 through April 9, 2010. During that time period, a total of 4,081 workers’
compensation claims were filed, of which 75 accepted claims could possibly be
attributable to environmental or chemical exposure. However, these claims were
typically for exposure to unusual smells or unidentified liquids with reactions such as
coughing or burning of the eyes. None of the 75 claims were related to long term
exposure to toxic substances. 4

Previous ad hoc testing and our review of the workers’ compensation claims do not
indicate that occupants of the Complex were subjected to sustained toxic substance
exposure. However, in the absence of a strong environmental management program,
GSA’s request to NIOSH to study potential long term health issues is prudent.

        Lax Oversight. The PBS approach to environmental issues at the Complex is
illustrated by its response to a January 7, 2005, letter from the Missouri Department of
Natural Resources (MDNR) regarding environmental conditions at the Complex. MDNR

                                                            
3
  Two samples exceeded the recommended exposure limit (REL) for formaldehyde but the report stated
the REL was being re-evaluated and did not state that formaldehyde exposure was an issue at the
Complex.
4
  No claim contained the Nature of Injury Code DE – Occupational Exposure to
Chemicals/Toxins/Biological Substance, etc.

                                                               4 
 
prepared the 11-page letter in response to PBS’s request for comments on a draft
report (relating to TCEs) prepared by a PBS environmental consultant.

The MDNR letter was highly critical of the consultant’s report stating,

       It appears to the department that the General Services Administration
       (GSA) believes that they only need to conduct a limited investigation of
       TCE contamination, speculate on whether Department of Energy's (DOE)
       remedies are controlling the contamination and conclude that there are no
       risks to human health or environment under the current conditions. 

and

       The document is biased towards a conclusion of no further action, where
       instead, it should focus on what data gaps exist and what further work
       needs to be done, especially since this is an interim report. 

and related to the child care facility,

       Instead, the document should propose a complete vapor intrusion study
       using acceptable methods as outlined in the EPA guidance. 

Despite the seriousness of the issues raised in the MDNR letter, PBS took no further
substantive investigative action until it initiated a preliminary assessment/site inspection
(PA/SI) in July 2006, 18 months after the letter. The PA/SI was not completed until May
2008 (3 1/2 years after the MDNR letter) and the original scope of work did not include
action related to the child care facility concerns raised by MDNR. PBS never provided
MDNR a response addressing each of MDNR’s concerns and the vapor intrusion
system that addresses one of MDNR’s concerns related to the child care facility was not
installed until February 2010 (5 years after the letter). We also noted that on October 7,
2005, MDNR offered to provide assistance to PBS regarding environment issues at the
Complex; however, PBS terminated MDNR’s environmental oversight contract on
October 24, 2005.

While we were informed by PBS personnel that the PA/SI was initiated in response to
MDNR’s concerns, we noted that PBS file documentation indicates that the PA/SI was
performed because the Complex was included on the Federal Agency Hazardous
Waste Compliance Docket (Docket) rather than in response to the MDNR letter.
Further, we noted that PBS environmental personnel did not inform regional PBS
management of MDNR’s concerns.

Another example of PBS’s lax oversight is reflected in its handling of wells installed to
monitor groundwater contamination. PBS installed two monitoring wells at the
Northwest portion of the Complex prior to 2002. It installed an additional monitoring well
in the same area during 2002 and six more in 2006. However, aside from initial testing



                                             5 
 
and one test in 2004, these wells were not monitored until the DOE (that operates a
three million square foot plant at the Complex) began testing the wells in 2008.

Although PBS is currently diligent in pursuing environmental issues at the site, its efforts
were slow to start. In August 2009, a Heartland Region PBS official received a draft
letter that was addressed to the two sitting U.S. Senators from the state of Missouri.
This letter, which was the basis for later news reports, indicated that over 90 occupants
of the Complex had contracted illnesses attributable to contamination at the Complex.
The PBS official contacted safety and environmental management personnel about the
draft letter and was provided assurances that the Complex was safe. The draft letter
was not provided to the Acting Regional Administrator and no work on this issue was
performed by the safety and environmental personnel until January 2010, after the
environmental conditions at the Complex became the focus of media reports. PBS
safety and environmental files did not contain any documentation indicating that the
letter was evaluated in any form.

      Lack of Knowledge. PBS officials do not appear to have a clear understanding of
PBS’s environmental responsibilities relative to the GSA-controlled portion of the
Complex. For example, PBS environmental personnel could not provide accurate
information about the environmental regulations that pertain to the GSA portion of the
Complex. PBS environmental personnel often directed us to EPA and DOE for the
answers to environmental questions regarding the Complex.

Since the late 1980s, the Complex has been listed in the Comprehensive Environmental
Response, Compensation, and Liability Information System (CERCLIS). CERCLIS is
an official repository for Superfund data in support of CERCLA. CERCLA (also known
as the Superfund Act) Section 120(c) requires EPA to establish a Docket which contains
information reported to EPA by federal facilities. Each Docket facility is required to
conduct a preliminary assessment to identify and investigate areas potentially
contaminated by hazardous waste. EPA’s website indicates that GSA completed a
preliminary assessment and site inspection for the Complex on January 20, 1989. After
this assessment, EPA evaluated the environmental conditions at the Complex and did
not place the Complex on the National Priorities List (NPL). The NPL is a listing of sites
that are of a higher priority for clean up due to contamination.

PBS environmental personnel could not provide basic information regarding the
CERCLA status of the Complex or EPA oversight responsibilities for the Complex. We
further note that PBS personnel did not have regular meetings with EPA or DOE
environmental staff. We believe that regular interaction with both entities was needed to
acquire and maintain a basic knowledge of conditions at the Complex and any related
actions that should be taken.

In addition, consistent with the PBS records regarding the January 2005 MDNR letter,
the safety and environmental file documentation and interviews with PBS environmental
personnel indicate that the environmental personnel generally did not bring
environmental issues to the attention of Heartland Region or central office management.

                                             6 
 
       Summary. The lack of proactive environmental management by PBS is a
vulnerability for GSA. 5 PBS should have established a stronger environmental
management program because of the history of contaminants at the Complex. Without
a comprehensive historical perspective, there is insufficient evidence to conclude that
occupants at the Complex were not exposed to toxic substances. At a minimum, PBS
environmental personnel should have responded directly and quickly to address
MDNR’s concerns and the initial allegations of serious illnesses at the Complex. Our
review indicates that, not only did PBS environmental personnel fail to quickly take
action and respond to concerns, they did not inform regional GSA management that
these concerns were raised.


Recommendations

We recommend that the Regional Administrator, GSA Heartland Region, and the
Heartland Regional Commissioner, Public Buildings Service,

       1. Build on the actions taken during the current year to establish an environmental
          management program that proactively protects the occupants at the Complex;
          and

       2. Establish controls to ensure that PBS environmental personnel are
          knowledgeable of the environmental rules and regulations applicable to the
          Complex.


Incorrect and Misleading Information, Inadequate File Documentation, and
Possible Non-Compliance with CERCLA Reporting Requirements Damage GSA’s
Credibility

PBS often provided erroneous and/or incomplete information to both the public and our
office concerning environmental issues at the Complex. Some of this information was
incorrect to the point that it misled requestors as to the environmental work performed at
the Complex. This problem has damaged GSA’s credibility with both building occupants
and the general public. In addition, PBS file documentation dealing with environmental
issues at the Complex was incomplete and disorganized and PBS may not have
complied with CERCLA requirements to annually report on environmental conditions at
the Complex.




                                                            
5
 This vulnerability was previously raised by the Office of Inspector General (OIG) in national reviews. For
example, the OIG’s 2006 Review of the PBS Environment Program Management (A050040/P/4/R06003)
contained a series of recommendations to implement a national environmental management system;
improve the environmental risk index; and strengthen environmental liability reporting.

                                                               7 
 
Incorrect and Misleading Information

In response to questions regarding the safety of the Complex, PBS environmental
personnel informed regional agency management and our office that PBS performs
“comprehensive” annual and 5-year safety and health evaluations at the Complex. This
information was also provided to the public. However, a review of PBS file
documentation indicated that no annual or 5-year comprehensive testing for
environmental hazards was ever performed. In fact, environmental hazard testing
performed was conducted in response to specific issues raised at the Complex and
limited to the areas in which the concerns were raised.

Interviews with PBS environmental personnel revealed that these annual and 5-year
surveys generally consisted of visual safety walkthroughs and did not include testing for
toxic substances such as TCEs, PCBs, and beryllium. Further, these walkthroughs
were not documented in PBS files. The PBS individual who performed these reviews
stated that notes were taken during the reviews but were discarded after recording any
corrective work needed in a computer spreadsheet.             During interviews, PBS
environmental personnel confirmed that these walkthroughs did not include testing for
toxic substances. As a result, because the specific issue raised was related to toxic
substances at the Complex, PBS’s response that it performed comprehensive annual
and 5-year evaluations was incorrect to the point that it misled people regarding the
work performed in these surveys.

In addition, we determined many of PBS’s verbal responses to inquires from our office
about various safety and health issues at the Complex were either incorrect and/or
unsupported. Although we requested all information related to environmental issues at
the Complex, PBS did not provide the January 7, 2005, MDNR letter to our office. We
obtained this letter and other associated correspondence directly from MDNR. When
confronted about this, PBS environmental personnel took weeks to locate the document
and did not present complete information regarding the letter. Further, in response to
questions about the letter and other documentation that was not supplied, a PBS
industrial hygienist provided information that was later determined to be incorrect.

In providing incorrect and misleading information PBS has seriously compromised
GSA’s credibility with both the occupants of the Complex and the general public. GSA
will need to bridge this credibility gap in order to convince Complex tenants and the
public that the site will ever be safe.

Inadequate File Documentation

In accordance with 36 CFR Part 1220.30(a), PBS personnel, “. . . must make and
preserve records containing adequate and proper documentation of the organization,
functions, policies, decisions, procedures, and essential transactions of the agency.
These records must be designed to furnish the information necessary to protect the
legal and financial rights of the Government and of persons directly affected by the
agency’s activities.” Federal Acquisition Regulation 4.801 provides additional criteria

                                           8 
 
regarding file documentation. We determined that PBS did not document or maintain
files in accordance with applicable criteria. In addition, PBS could not locate some
records that we requested.

Not only is proper documentation a requirement but, more importantly, it substantiates
actions taken by government personnel. Additionally, PBS’s failure to provide
appropriate documentation was the subject of our June 24, 2010, Alert Report 6 which
reported that GSA had not properly responded to a Freedom of Information Act request
pertaining to health and environmental conditions at the Complex.

Possible Non-Compliance with CERCLA Reporting Requirements

In accordance with CERCLA Section 120(e)(5), “Each department, agency, or
instrumentality responsible for compliance with this section shall furnish an annual
report to the Congress concerning its progress in implementing the requirements of this
section.” We identified one instance, December 29, 1988, where GSA filed an annual
report on its implementation of the CERCLA requirements for the Complex.

While the requirements of the CERCLA are applicable to the Complex and to GSA, a
PBS official questioned whether the annual reporting requirements are applicable to the
Complex if there are no hazardous waste operations to report. We did not identify any
criteria that excluded filing an annual report for this reason.


Recommendations

We recommend that the Regional Administrator, GSA Heartland Region, and the
Heartland Regional Commissioner, Public Buildings Service,

       3. Institute controls to ensure that information provided to the public and in
          response to other inquiries is accurate and that safety and environmental
          management personnel maintain complete and organized files in order to provide
          a complete and accurate basis for the information; and

       4. In conjunction with GSA’s Office of General Counsel, determine whether GSA is
          required to file an annual CERCLA report with Congress for the Complex and, if
          applicable, file the appropriate reports.


Conclusion

Our review determined that current testing performed at the Complex has not identified
any significant health hazards present in GSA-controlled space. Further, historical ad
hoc testing and our review of workers’ compensation claims filed by occupants of the
                                                            
6
Alert Report, Review of Health and Safety Conditions at the Bannister Federal Complex, Kansas City,
Missouri, Assignment Number A100116/P/6/W10001, dated June 24, 2010.

                                                               9 
 
Complex do not indicate any sustained exposure to toxic substances by GSA
occupants. However, it is important to note that not all of the test results have been
finalized and the health hazard evaluation being conducted by NIOSH has not been
completed.

While the analyses that are currently being performed by NIOSH and EPA will assist in
addressing environmental issues at the Complex, PBS should build on these steps to
establish a comprehensive environmental management program.           An effective
environmental management program would also help to strengthen GSA’s credibility
regarding conditions at the Complex.


Internal Controls

Our evaluation of internal controls in the Heartland Region PBS was limited to those
areas necessary to accomplish our objective. The internal controls were deficient to the
extent identified in this report.


Management Comments

Regional Management disputed some aspects of the report but agreed with the
recommendations. Management’s response is included in its entirety as Appendix C.


OIG’s Response

We considered Regional Management’s comments in preparing the final report.
Regional Management, in its response, stated that the report highlighted many lessons
learned and improvements that it has already acted upon. However, it mistakenly casts
our position as believing that PBS should have conducted more health-related
environmental tests. This misconception misses one of the main points of the review:
specifically, the problematic actions by the region indicate a lax environmental
management program. A strong environmental management program would have
taken into consideration the issues at the site, provided a set of actions for dealing with
them, supported the decision-making process, and assisted in managing the public’s
environmental concerns.




                                            10 
 
APPENDIXES
                                       REVIEW OF HEALTH AND SAFETY CONDITIONS
                                         AT THE BANNISTER FEDERAL COMPLEX
                                                KANSAS CITY, MISSOURI
                                          REPORT NUMBER A100116/P/6/R11001


                                                                    APPENDIX A
                                                         Objective, Scope, and Methodology

The objective of our review was to determine whether General Services Administration’s
(GSA’s) Public Buildings Service (PBS) took appropriate steps to protect the health and
safety of the occupants, including the child care facility, under its control at the
Complex.

In order to accomplish our objective, we (1) reviewed and evaluated documentation and
files maintained by PBS environmental personnel; (2) examined relevant laws,
Executive Orders, regulations, and GSA orders and directives; (3) discussed
environmental management with regional and central office PBS personnel; (4) met with
the Missouri Department of Natural Resources (MDNR) personnel in Jefferson City,
Missouri, where we obtained and reviewed MDNR documentation related to the
Complex; (5) interviewed U.S. Environmental Protection Agency (EPA) personnel
regarding its roles and responsibilities at the Complex; (6) met with and obtained
documentation from PBS’s environmental consultant;  and (7) obtained and evaluated
documentation from the U.S. Department of Labor concerning workers’ compensation
claims filed by employees at the Complex.

It is important to note that our review covered environmental aspects at the Complex
during three different time periods: (1) testing that was performed in 2010; (2)
documentation and test results from the 10-year period, 1999 through 2009; and (3)
information and documentation prior to 1999. This was necessary in order to properly
evaluate what actions GSA was currently taking in contrast to what had previously been
done at the Complex. Further, this approach was required because of technological
improvements in environmental and health testing over the years as well as the fact that
the specific factors/criteria as to what constitutes a health risk (e.g., groundwater
contamination by trichloroethylene) have changed. For these reasons, and because of
the difficulty in identifying older, relevant documentation, our review concentrated on the
time period 1999 through 2010.

Additionally, at our request, both the Department of Energy (DOE) Office of Inspector
General (OIG) and EPA OIG are currently conducting separate reviews related to the
Complex. The DOE OIG’s audit objective is to determine whether the Kansas City Plant
had controls in place to protect the environment, and the health and safety of its
employees. The EPA OIG’s audit objectives are to review EPA Region 7’s 7 actions at
the site, specifically focusing on evaluating the various testing methods and results
related to Buildings 50 and 52.
                                                            
7
    EPA Region 7 has oversight responsibility for the GSA-controlled portion of the Complex.


                                                                       A-1
                      Objective, Scope, and Methodology (Cont.)

Building 50 houses PBS’s field office operation for the Complex and is adjacent to
Building 52, which is the child care facility located at the Complex. Further, at the
request of PBS and the Regional Administrator for GSA’s Heartland Region, the Center
for Disease Control’s National Institute for Occupational Safety and Health is conducting
a health hazard evaluation for the Complex. This evaluation is an assessment to
establish whether occupants have been exposed to hazardous materials or harmful
conditions and whether these exposures affect an occupant’s health. The results of
these reviews will be addressed by the specific agencies responsible for conducting
them and, as such, are not included in the scope of our review.

The review was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our review objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our review
objective.




                                          A-2
                 REVIEW OF HEALTH AND SAFETY CONDITIONS
                   AT THE BANNISTER FEDERAL COMPLEX
                          KANSAS CITY, MISSOURI
                    REPORT NUMBER A100116/P/6/R11001


                                     APPENDIX B
         Map of the Bannister Site, Current Usage, and Historical Background




The Bannister Federal Complex (Complex) consists of 310 acres located on Bannister
Road in the southern part of Kansas City, Missouri.

The Department of Energy’s (DOE’s) National Nuclear Security Administration (NNSA)
currently contracts with Honeywell Federal Manufacturing & Technologies, LLC
(Honeywell FM&T) to produce non-nuclear mechanical, electronic, and engineered
material components for U.S. national defense systems at the site. DOE controls over
30 buildings totaling over three million square feet of space. Currently there are
approximately 2,550 employees in the DOE-controlled portion of the Complex.


                                        B-1
         Map of the Bannister Site, Current Usage, and Historical Background
                                        (Cont.)

GSA controls the remaining two million square feet in 12 buildings. The GSA-controlled
portion is primarily used as office and storage space for numerous government
agencies including GSA, the Department of Commerce, the Department of Agriculture,
the Department of Veterans Affairs, and the U.S. Marine Corps. In 1989, GSA built a
child care facility on the Complex. There are currently approximately 1,400 government
employees in the GSA-controlled portion of the Complex and 75 children enrolled in the
child care facility.

Historical Background

In 1942, the Complex was developed as a manufacturing plant to build aircraft engines
for the U.S. Navy. In 1949, the Bendix Corporation commenced a manufacturing
operation for the non-nuclear components of nuclear weapons for the Atomic Energy
Commission (now NNSA). NNSA currently contracts with Honeywell FM&T for the
manufacturing operation at the Complex.

In the past, chemicals that are currently known to be harmful to humans and the
environment were used at the Complex. Portions of the complex have been used for
waste disposal and remediation. Upon identifying hazards, various monitoring and
remediation efforts have been undertaken at the Complex. Currently, the major
contaminants identified at the Complex are trichloroethylene and polychlorinated
biphenyls. Over 200 groundwater wells located throughout the Complex monitor the
presence of these contaminants which are not in the process of being remediated.

The entire site has undergone many changes and tens of thousands of people have
worked at the site over the last 60 years. In the 1990s, for example, the NNSA
employed over 6,000 workers and over 4,000 federal employees were housed in the
Complex.




                                         B-2
REVIEW OF HEALTH AND SAFETY CONDITIONS
  AT THE BANNISTER FEDERAL COMPLEX
         KANSAS CITY, MISSOURI
   REPORT NUMBER A100116/P/6/R11001


              APPENDIX C
          Management Response




                  C-1
Management Response (Cont.)




           C-2
Management Response (Cont.)




           C-3
 



                  REVIEW OF HEALTH AND SAFETY CONDITIONS
                    AT THE BANNISTER FEDERAL COMPLEX
                           KANSAS CITY, MISSOURI
                     REPORT NUMBER A100116/P/6/R11001


                                      APPENDIX D
                                    Report Distribution

                                                                     Copies

Commissioner, Public Buildings Service (P)                             1

Regional Administrator, Heartland Region (6A)                          1

Regional Commissioner, Public Buildings Service (6P)                   1

Regional Counsel (6L)                                                  1

Director, Internal Control & Audit Division (BEI)                      1

Assistant Inspector General for Auditing (JA & JAO)                    2

Counsel to the Inspector General (JC)                                  1

Deputy Assistant Inspector General for Real Property Audits (JA-R)     1

Special Agent in Charge (JI-6)                                         1




                                            D-1
